2311 Douglas Street
Omaha, Nebraska 68102-1214

E-Mail Address:
contact@cocklelegalbriefs.com

1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850

Web Site
www.cocklelegalbriefs.com

No. 19-______
JOHN AND MELISSA FRITZ,
Petitioners,
v.
WASHOE COUNTY, NEVADA,
Respondent.
AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 23rd day of March, 2020, send out
from Omaha, NE 1 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar
days. Packages were plainly addressed to the following:
SEE ATTACHED
To be filed for:
Luke Busby
Counsel of Record
316 California Avenue, No. 82
Reno, Nevada 89509
(775) 453-0112
luke@lukeandrewbusbyltd.com

Robert H. Thomas
DAMON KEY LEONG
KUPCHAK HASTERT
1003 Bishop Street
16th Floor
Honolulu, Hawaii 96813
(808) 531-8031
Counsel for Petitioners

Subscribed and sworn to before me this 23rd day of March, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

Notary Public

Affiant

